LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

July 14, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-843:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC., ET AL. V.
K EVIN P. B RUEN , IN H IS O FFICIAL C APACITY AS
SUPERINTENDENT OF NEW YORK STATE POLICE, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Bay Colony
Weapons Collectors, Inc. on July 14, 2021, I caused service to be made pursuant to
Rule 29 on the following counsel for the Petitioners and Respondents:
PETITIONERS:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
202-389-5000
paul.clement@kirkland.com

RESPONDENTS:
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
212-416-8016
Barbara.underwood@ag.ny.gov

This service was effected by depositing three copies of the Brief of Amici Curiae
Bay Colony Weapons Collectors, Inc. in an official “first class mail” receptacle of the
United States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 14th day of July 2021.

